Supreme Court, U.S.
FILED

WAIVER

JAN 2 2 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-883

Donald J. Trump

v.

Wis. Elections Comm'n, et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
E] Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Cory Mason, Mayor of the City of Racine; Tara Coolidge, Clerk of the City of Racine; John Antaramian, Mayor of the City of Kenosha

Matt Kreuter, Clerk of the City of Kenosha; Eric Genrich, Mayor of the City of Green Bay; Kris Teske, Clerk of the City of Green Bay

El I am a member of the Bar of the Supreme Court of the United States.
El I am not presently a member of the ar of his Court. Should a response be requested, the response
will be filed by a Bar member. 2
Signature
Date-

AC;:t1
3 ...

January 21,

(Type or print) Name

2

Daniel S. Lenz
El Mr.

Firm

❑ Ms.

El Mrs.

❑ Miss

Lawton & Cates, S.C.

Address

345 W. Washington Ave., Suite 201

City & State
Phone

)

Madison, WI

(608) 282-6200

Zip
Email

53703

dlenz@lawtoncates.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: William Bock Ill, counsel for petitioner. All other parties served via email.

Lawton & Cates, s.c.
The voice of experience

345W. Washington Avenue, Suite 201
P. 0. Box 2965
Madison, WI 53701-2965
IP: 608.282.6200 F: 608282.6252
www.lawtoncates.corn

dlenz@lawtoncates.com
January 21, 2021

Scott S. Harris, Clerk of the Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Donalc11 Trump v. Wisconsin Elections Comm 'n, et al.
Supreme Court Case No. 20-883

Dear Mr. Harris,
Enclosed for filing please find a waiver on behalf of Cory Mason, Mayor of the City of
Racine; Tara Coolidge, Clerk of the City of Racine; John Antaramian, Mayor of the City of
Kenosha; Matt Krauter, Clerk of the City of Kenosha; Eric Genrich, Mayor of the City Green
Bay; and Kris Teske, Clerk of the City of Green Bay.
If you have any questions or concerns, please contact me.

Sincerely,

Daniel S. Lenz
Enc.
CC:

William Bock, III (via U.S. Mail)
Counsel of Record (via e-mail)

RECEIVED
JAN 2 6 2021
OFFICE OF THE CLERK

SUPREME COURT, U S.

Also serving you in Jefferson, WI at:
146 E. Milwaukee Street, Suite 120 I PO Box 399 I Jefferson, WI 53549
P 920.674.4567 I F 920.674.4726

